OFFICE OF THE ESSEX COUNTY PROSECUTOR
THEODORE N. STEPHENS II
ACTING ESSEX COUNTY PROSECUTOR
Tel: (973) 621-4700

Fax: (973) 621-5697

ROMESH C. SUKHDEO

MITCHELL G. McGUIRE III
ACTING CHIEF OF PROSECUTOR’S DETECTIVES

ACTING FIRST ASSISTANT PROSECUTOR

March 8, 2021
The Honorable Scott Harris
Clerk of the Court
Supreme Court of the United States
1 First Street, NE
Washington, DC 20543
Re: Andrews v. New Jersey, No. 20-937
Dear Mr. Harris:
This office represents the Respondent, State of New Jersey, in the abovecaptioned matter. Pursuant to Supreme Court Rule 30.4, we write to respectfully
request a 14-day extension of time to file a response to the Petition in this matter.
The Petition was filed on January 7, 2021. The Court requested a response to the
Petition on February 17, 2021. The response to the Petition is currently due on or
before March 19, 2021. An extension of 14 days will create a new due date of April
2, 2021.
This is Respondent’s first request for an extension in this matter. This
modest extension is sought because the attorneys assigned to this matter have
several briefing deadlines and hearings this month, and an extension is necessary
to ensure Respondent can provide a thorough and appropriate response to the
Petition.
We thank you in advance for your consideration of this request.
Respectfully submitted,
_________________________
Frank J. Ducoat
Counsel of Record for Respondent

AN EQUAL OPPORTUNITY EMPLOYER

www.njecpo.org

CERTIFICATE OF SERVICE
Pursuant to Supreme Court Rule 29, the undersigned hereby certifies that on
March 8, 2021, a copy of the foregoing request for extension of time to file a
response to the Petition was sent via e-mail and via U.S. certified mail to counsel
for Petitioner:
Jennifer Stisa Granick
American Civil Liberties Union Foundation
39 Drumm Street
San Francisco, CA 94114
jgranick@aclu.org
Robert L. Tarver, Jr.
Law offices of Robert L. Tarver, Jr.
66 South Main Street
Toms River, NJ 08757
tarverlawoffice@gmail.com

_________________________
Frank J. Ducoat
Counsel of Record for Respondent
Dated: March 8, 2021

